                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-03419-90


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                 at 

     Atlanta VA Medical Center 

          Decatur, Georgia 





March 17, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                   CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       MH         mental health
                       MI         motivational interviewing
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCMM       Primary Care Management Module
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                                              CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    11

  C. VISN Director Comments ..................................................................................                    15

  D. Facility Director Comments ...............................................................................                   16

  E. OIG Contact and Staff Acknowledgments .........................................................                              18

  F. Report Distribution .............................................................................................            19

  G. Endnotes ...........................................................................................................         20





VA OIG Office of Healthcare Inspections
                                                                 CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA



                                                           Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted a site visit during the week of November 18, 2013, at the
Trinka Davis Veterans Village CBOC, Carrollton, GA, which is under the oversight of the
Atlanta VA Medical Center and Veterans Integrated Service Network 7.

Review Results: We conducted four focused reviews and had no findings for the
Medication Management and the Designated Women’s Health Providers’ Proficiency
reviews. However, we made recommendations in the following two review areas:

Environment of Care. Ensure that panic alarms are tested and testing is documented.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	     Staff consistently complete diagnostic assessments for patients with a positive
       alcohol screen.

	     Registered Nurse Care Managers receive motivational interviewing and health
       coach training within 12 months of appointment to Patient Aligned Care Teams.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 15–17, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                                                                                                                 
                                                                                                                 JOHN D. DAIGH, JR., M.D. 

                                                                                                                Assistant Inspector General for 

                                                                                                                   Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                                                                             i
                                        CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                             1
                                        CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA


Table 1. CBOC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH primary care providers designated as DWHPs as of
                               October 1, 2012, and who remained as DWHPs until
                               September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0-12.


VA OIG Office of Healthcare Inspections                                                                              2
                                           CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted a physical inspection of the CBOC. The table
below shows the areas reviewed for this topic. The area marked as NM did not meet applicable
requirements and needed improvement.

Table 2. EOC

NM                      Areas Reviewed                                      Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
 X     An alarm system and/or panic buttons are          The testing of the alarm system was not
       installed in high-risk areas (e.g., MH clinic).   performed and documented.
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.




VA OIG Office of Healthcare Inspections                                                                3
                                            CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA


NM               Areas Reviewed (continued)                                 Findings
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are visible or unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period).
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendations

1.   We recommended that panic alarms are tested and testing is documented.




VA OIG Office of Healthcare Inspections                                                                 4
                                            CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                         Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 6 (15 percent) of 40 patients who had
                                                          positive alcohol use screens.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 17 (35 percent) of 48 RN Care
       received MI training within 12 months of           Managers did not receive MI training within 12
       appointment to PACT.                               months of appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 17 (35 percent) of 48 RN Care
       received National Center for Health Promotion      Managers did not receive health coaching
       and Disease Prevention approved health             training within 12 months of appointment to
       coaching training (most likely TEACH for           PACT.
       Success) within 12 months of appointment to
       PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

2. We recommended that CBOC/PCC staff consistently complete diagnostic assessments for
patients with a positive alcohol screen.




VA OIG Office of Healthcare Inspections                                                                    5
                                          CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA


3. We recommended that CBOC/PCC RN Care Managers receive MI and health coaching
training within 12 months of appointment to PACT.




VA OIG Office of Healthcare Inspections                                                               6
                                           CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The facility
generally met requirements. We made no recommendations.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                      Findings
       Clinicians documented the medication
       reconciliation process that included the
       fluoroquinolone.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.




VA OIG Office of Healthcare Inspections                                                                7
                                          CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, PCMM data, and supporting
documentation for DWHPs’ proficiencies. The table below shows the areas reviewed for this
topic. The area marked as NM did not meet applicable requirements and needed improvement.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                      Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
                                                      Thirteen DWHPs were noted as Women’s
       CBOC and PCC DWHPs were designated
 X                                                    Wellness providers and not designated with the
       with the WH indicator in the PCMM.
                                                      WH indicator in the PCMM.

The facility made the required WH designations in PCMM for CBOC and PCC DWHPs during
the week of our review. We verified the updated information on November 26, 2013. Therefore,
we did not make a recommendation.




VA OIG Office of Healthcare Inspections                                                                8
                                                                                  CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA
                                                                                                                                     Appendix A


                                                                    CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                     Uniquesd                                  Encountersd

                                Station                   CBOC
          Location      State               Localitye                  MHg        PCh       Otheri      All       MHg         PCh      Otheri       All
                                   #                       Sizef
    Lawrenceville
                         GA      508GH       Urban        Large       1,364      8,131      5,017      8,608      5,972     15,347     13,251     34,570
    (Gwinnett County)
    East Point           GA      508GA       Urban        Large       1,154      6,728      5,783      8,027      5,619     16,823     18,837     41,279
    Stockbridge          GA      508GG       Urban        Large       1,111      6,032      5,756      7,101      6,421     11,846     23,649     41,916
    Austell              GA      508GF       Urban        Large       1,096      5,982      4,963      6,780      5,990     12,273     16,854     35,117
    NE Georgia/
                         GA      508GE       Urban        Large        467       5,104      2,822      5,204      2,935     14,474      6,825     24,234
    Oakwood
    Newnan               GA      508GI       Urban       Mid-Size      704       3,773      2,913      4,316      3,602      8,277      7,534     19,413
    Carrollton           GA      508GK       Rural       Mid-Size      449       1,692      2,349      2,750      1,860      3,583      7,896     13,339
    Blairsville          GA      508GJ       Rural       Mid-Size      556       2,560      1,569      2,708      3,184      5,945      4,268     13,397




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                    9
                                        CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.j

                                                                                               Tele-Health
              CBOC           Specialty Care Servicesk          Ancillary Servicesl
                                                                                                Servicesm
    Lawrenceville             Women's Cancer Care          Diabetic Retinal Screening       Tele Primary Care
    (Gwinnett County)            Dermatology                       Pharmacy
                                                                    Nutrition
                                                               MOVE! Programn
    East Point                Anti-Coagulation Clinic              Pharmacy                 Tele Primary Care
                                                           Diabetic Retinal Screening
                                                                    Nutrition
                                                               MOVE! Program
    Stockbridge               Anti-Coagulation Clinic              Pharmacy                 Tele Primary Care
                                   Dermatology                 MOVE! Program
                              Women's Cancer Care          Diabetic Retinal Screening
    Austell                        Dermatology                     Pharmacy                 Tele Primary Care
                                                           Diabetic Retinal Screening
    NE Georgia/Oakwood             Dermatology             Diabetic Retinal Screening       Tele Primary Care
                                                                    Nutrition
    Newnan                         Dermatology                     Pharmacy                 Tele Primary Care
                                                           Diabetic Retinal Screening
                                                               MOVE! Program
                                                                    Nutrition
    Carrollton                        Dental                       Audiology                Tele Primary Care
                                    Optometry                    Rehabilitation
                              Anti-Coagulation Clinic              Pharmacy
                                     Podiatry                       Nutrition
                                                           Diabetic Retinal Screening
    Blairsville                    Dermatology                      Nutrition               Tele Primary Care
                                                                   Pharmacy
                                                           Diabetic Retinal Screening
                                                               MOVE! Program
 




j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified 

CBOC.

k
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

l
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

m
  Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

n
  VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                         10
                                                                                                          CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA
                                                                                                                                                             Appendix B


                                                                                 PACT Compass Metrics

                                                        FY 2013 Average 3rd Next Available in PC Clinics
                                70.0
    Average Number of Days




                                60.0
                                50.0
                                40.0
                                30.0
                                20.0
                                10.0
                                 0.0
                                                                                                                           Lawrenceville
                                                                    East Point   NE Georgia/
                                                                                                Austell      Stockbridge     (Gwinnett     Newnan    Blairsville   Carrollton
                                        VHA Total   Atlanta (508)     CBOC        Oakwood
                                                                                               (508GF)         (508GG)        County)      (508GI)    (508GJ)       (508GK)
                                                                     (508GA)      (508GE)
                                                                                                                              (508GH)
                             OCT FY13     14.6          29.6           15.8         14.2         35.6            9.8           18.1         15.7         8.8          4.7
                             NOV FY13     15.2          28.0           15.9         10.1         47.1           11.4           18.2         16.0         9.7          7.3
                             DEC FY13     13.8          23.6           22.7         12.4         46.9           10.3           12.3         16.5         8.3          9.6
                             JAN FY13     14.0          25.3           22.4         13.1         34.4            7.6           11.6         18.4         8.4          29.2
                             FEB FY13     14.8          25.6           24.4         13.4         35.2            3.1           10.0         15.4         8.0          45.5
                             MAR FY13     13.3          22.2           26.6          8.4         32.8            4.0           12.3         25.9         4.4          51.0
                             APR FY13     14.4          25.6           24.2          8.3         36.7            2.9           15.2         21.0         4.3          61.2
                             MAY FY13     16.0          26.2           25.1         32.8         33.1            5.1           19.9         28.0         4.7          63.4
                             JUN FY13     14.2          22.4           19.8         20.7         37.5            7.3           19.1         36.3         6.6          48.1
                             JUL FY13     14.6          22.2           21.6         16.6         25.0            5.3           18.9         38.6         5.2          49.5
                             AUG FY13     15.7          24.6           18.4         18.2         27.5           10.8           20.5         44.9         3.9          44.7
                             SEP FY13     13.4          24.3           11.1         10.4         27.3            9.4           24.6         35.8         2.6          41.0


 Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
 Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
 appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
 national to the division level.
VA OIG Office of Healthcare Inspections                                                                                                                                         11
                                                                                  CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA




Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the
1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.
VA OIG Office of Healthcare Inspections                                                                                                                12
                                                                                                               CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA


                                                                             FY 2013 Ratio of ER Encounters While on Panel to




                              Percentage of ER Encounters to PC Encounters
                                                                              PC Encounters While on Panel (FEE ER Included)
                                                                             20%
                                                                             18%
                                                                             16%
                                                                             14%
                                                                             12%
                                                                             10%
                                                                             8%
                                                                             6%
                                                                             4%
                                                                             2%
                                                                             0%
                                                                                   OCT    NOV    DEC    JAN     FEB   MAR    APR    MAY    JUN     JUL   AUG     SEP
                                                                                   FY13   FY13   FY13   FY13   FY13   FY13   FY13   FY13   FY13   FY13   FY13   FY13
        VHA Total                                                                  16.3% 16.3% 16.4% 16.3% 16.3% 16.3% 16.1% 16.1% 16.0% 15.9% 15.8% 15.7%
        Atlanta (508)                                                              18.1% 18.2% 18.3% 18.4% 18.7% 18.6% 18.4% 18.2% 18.2% 18.4% 17.9% 17.8%
        East Point CBOC (508GA)                                                    16.7% 17.2% 17.5% 17.7% 17.3% 17.3% 17.4% 17.3% 17.3% 17.2% 16.2% 16.6%
        NE Georgia/Oakwood (508GE)                                                 7.7%   7.6%   7.8%   7.7%   7.8%   7.5%   7.2%   7.2%   7.2%   7.2%   6.9%   6.6%
        Austell (508GF)                                                            11.8% 12.0% 12.4% 12.8% 12.8% 12.3% 12.2% 12.2% 12.3% 12.0% 12.0% 11.8%
        Stockbridge (508GG)                                                        15.5% 15.7% 16.0% 16.3% 16.2% 16.9% 16.9% 16.9% 16.7% 17.1% 16.8% 16.6%
        Lawrenceville (Gwinnett County) (508GH) 13.8% 13.9% 14.0% 14.1% 14.3% 14.1% 14.4% 14.3% 14.3% 13.9% 13.8% 13.3%
        Newnan (508GI)                                                             9.1%   9.0%   9.6%   8.3%   8.0%   8.0%   7.6%   7.5%   7.2%   7.2%   7.2%   7.1%
        Blairsville (508GJ)                                                        6.2%   5.5%   5.6%   5.5%   5.7%   5.8%   5.7%   5.6%   5.5%   5.6%   5.4%   5.3%
        Carrollton (508GK)                                                         2.3%   2.6%   2.5%   2.9%   3.1%   3.4%   3.5%   4.1%   4.0%   3.9%   4.1%   3.8%




Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.

VA OIG Office of Healthcare Inspections                                                                                                                                  13
                                                                                   CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA


                                          FY 2013 2‐Day Contact Post Discharge Ratio
        100%

         90%

         80%

         70%

         60%

         50%

         40%

         30%

         20%

         10%

          0%
                                                                                                 Lawrenceville
                                                          NE Georgia/
                                             East Point                  Austell   Stockbridge     (Gwinnett     Newnan     Blairsville   Carrollton
                 VHA Total   Atlanta (508)                 Oakwood
                                           CBOC (508GA)                 (508GF)      (508GG)        County)      (508GI)     (508GJ)       (508GK)
                                                           (508GE)
                                                                                                    (508GH)
     OCT FY13     52.8%         44.8%         75.5%         73.9%        61.9%        69.6%         73.6%         55.6%       33.3%         0.0%
     NOV FY13     52.9%         53.9%         41.3%         41.2%        35.3%        60.5%         58.0%         69.2%       60.0%         66.7%
     DEC FY13     51.5%         45.9%         58.8%         63.3%        22.6%        57.1%         65.1%         50.0%       30.0%         40.0%
     JAN FY13     57.2%         47.2%         54.1%         67.7%        50.0%        65.2%         64.6%         32.0%       50.0%         60.0%
     FEB FY13     60.4%         54.2%         62.9%         67.9%        36.8%        72.2%         70.6%         81.3%       83.3%         40.0%
     MAR FY13     64.4%         58.8%         55.9%         50.0%        25.6%        80.0%         74.7%         62.1%       63.6%         33.3%
     APR FY13     65.5%         56.3%         68.9%         71.0%        72.0%        76.1%         79.7%         61.1%       100.0%        50.0%
     MAY FY13     66.1%         60.9%         73.1%         84.6%        67.3%        57.5%         81.2%         61.1%       66.7%         28.6%
     JUN FY13     70.1%         58.4%         71.1%         73.5%        58.1%        78.3%         80.4%         71.4%       87.5%         66.7%
     JUL FY13     71.1%         51.7%         60.7%         78.3%        71.7%        69.4%         79.1%         53.8%       66.7%         80.0%
     AUG FY13     72.7%         53.1%         76.9%         88.9%        53.8%        69.2%         82.6%         73.9%       70.6%         54.5%
     SEP FY13     68.9%         51.9%         65.7%         64.3%        83.3%        76.3%         75.0%         56.3%       44.4%         75.0%



Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.

VA OIG Office of Healthcare Inspections                                                                                                                   14
                                   CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA
                                                                                      Appendix C
                               VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


           Date:       January 31, 2014

          From:        Director, VISN 7 (10N7)

       Subject:        CBOC and PCC Reviews of the Atlanta VA Medical
                       Center, Decatur, GA

             To:       Director, Atlanta Office of Healthcare Inspections (54AT)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)

       1. I concur with the Atlanta VA Medical Center’s responses and action
          plans as detailed within this report. VISN 7 will provide oversight and
          support to ensure that all actions are implemented and sustained.

       2. If you have any questions or require additional information please
          contact Dr. Robin Hindsman, VISN QMO at 678-924-5723.




           (original signed by:)

           Charles E. Sepich, FACHE




VA OIG Office of Healthcare Inspections                                                       15
                                   CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA
                                                                                      Appendix D
                             Facility Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:       January 27, 2014

           From:       Director, Atlanta VA Medical Center (508/00)

       Subject:        CBOC and PCC Reviews of the Atlanta VA Medical
                       Center, Decatur, GA

             To:       Director, VA Southeast Network (10N7)

       1. I concur with all of the findings and recommendations of the Office of
          Inspector General Community Based Outpatient Clinic (CBOC) and
          Primary Care Reviews at the Atlanta VA Medical Center, Decatur, GA.

       2. Thank you for the opportunity to review the draft report. A
                                                                    	 ttached are
          the facility actions taken as a result of these findings.




           (original signed by:)

           Leslie Wiggins

           Director, Atlanta VA Medical Center (508/00) 





VA OIG Office of Healthcare Inspections                                                       16
                                   CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that panic alarms are tested and testing is
documented.

Concur

Target date for completion: Completed: January 24, 2014

Facility response: The Atlanta VA Police Service performs system-wide monthly testing
of panic alarms including the Trinka Davis Veterans Village. The results of the panic
alarm testing are documented and filed into a healthcare system-wide database.

Recommendation 2. We recommended that staff consistently complete diagnostic
assessments for patients with a positive alcohol screen.

Concur

Target date for completion: Completed: December 22, 2013

Facility response: The Primary Care Service Line developed the standard operating
procedure (SOP) that includes nursing staff providing veterans scoring a positive score
on Audit C screen, with an educational alcohol brochure at intake. The Clinicians will
perform brief alcohol counselling and intervention with the help of the clinical reminder.
Review of Medical records indicated compliance with the SOP. The Primary Care
Service Line Performance Improvement Coordinator will continue to monitor medical
records monthly for compliance of brief alcohol counselling for positive Audit C screens.

Recommendation 3. We recommended that CBOC/PCC RN Care Managers receive
MI and health coaching training within 12 months of appointment to PACT.

Concur

Target date for completion: Completed: January 17, 2014

Facility response: All RN Care Managers associated with CBOCs received MI and
health coaching as per the handbook. To maintain compliance, the Health Promotion
Disease Prevention (HPDP) Program Manager and Health Behavior Coordinator will
continue to work closely with the CBOC Operations Managers to identify RN Care
Managers needing training. All new CBOC/PCC RN Care Managers will be scheduled
to attend the MI and TEACH training within 12 months of appointment to PACT.




VA OIG Office of Healthcare Inspections                                                       17
                                   CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Tishanna McCutchen, ARNP, MSN, Team Leader
Contributors
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Toni Woodard, BS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                       18
                                   CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA
                                                                                      Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 7 (10N7)
Director, Atlanta VA Medical Center (508/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Saxby Chambliss, Johnny Isakson
U.S. House of Representatives: Henry C. “Hank” Johnson Jr., John Lewis, Tom Price,
 Lynn A. Westmoreland


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                       19
                                         CBOC and PCC Reviews at Atlanta VA Medical Center, Decatur, GA
                                                                                            Appendix G

                                                   Endnotes 


1
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    20
